<html>
<title> - U.S. POLICY TOWARDS ISIL AFTER TERROR GROUP SEIZES RAMADI AND PALMYRA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                 U.S. POLICY TOWARDS ISIL AFTER TERROR 
                     GROUP SEIZES RAMADI AND PALMYRA

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 3, 2015

                               __________

                           Serial No. 114-113

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                        U.S. GOVERNMENT PUBLISHING OFFICE
94-835PDF                   WASHINGTON : 2015                        
                     
________________________________________________________________________________________                     
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="deb9aeb19ebdabadaab6bbb2aef0bdb1b3f0">[email&#160;protected]</a>  
                     
                     
                     
                     
                     
                     
                     COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Michael Rubin, Ph.D., resident scholar, American Enterprise 
  Institute......................................................     6
Anthony H. Cordesman, Ph.D., Arleigh A. Burke chair in strategy, 
  Center for Strategic and International Studies.................    19
Matthew Spence, Ph.D. (former Deputy Assistant Secretary for 
  Middle East Policy, U.S. Department of Defense)................    34

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Michael Rubin, Ph.D.: Prepared statement.........................     9
Anthony H. Cordesman, Ph.D.: Prepared statement..................    21
Matthew Spence, Ph.D.: Prepared statement........................    37

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61

 
 U.S. POLICY TOWARDS ISIL AFTER TERROR GROUP SEIZES RAMADI AND PALMYRA

                              ----------                              


                        WEDNESDAY, JUNE 3, 2015

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 12 o'clock p.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order. 
After recognizing myself and Ranking Member Deutch, who came 7 
minutes before me today, for 5 minutes each for our opening 
statements, I will then move immediately to the witnesses for 
their opening statements.
    And without objection, the witnesses' prepared statements 
will be made a part of the record and members may have 5 days 
to insert statements and questions for the record subject to 
the length limitation of the rules.
    And the reason we are zooming right along is because--for 
the audience, thank you, and for our witnesses--at 1:30 
approximately we will have the first series of votes and there 
are 15 votes.
    So I don't think we want to keep you guys waiting for about 
3 hours. So thank you very much.
    The chair recognizes herself for 5 minutes. It is time that 
we dispense with the administration's charade that our anti-
ISIL strategy is a success.
    In Iraq, ISIL holds almost a third of the country's 
territory and controls major strategic population centers in 
Mosul, Fallujah and Ramadi.
    While Secretary Carter may blame the Iraqi military for not 
having the will to fight in Ramadi, Prime Minister Abadi has 
strongly denied it and said yesterday that he is not receiving 
the arms and support necessary for him to take on ISIL.
    In Syria, ISIL controls half the country's territory, 
according to the Syrian Observatory for Human Rights. ISIL's 
capture of Tadmur, adjacent to the ancient city of Palmyra, 
gives them control of a strategic crossroads and unrestricted 
access to Iraq's Anbar Province.
    There are some success stories where we have been able to 
push ISIL back from its positions. But ISIL continues to spread 
into other areas as well. ISIL is already in Libya, Egypt, 
Nigeria, Afghanistan and Pakistan.
    It is also creeping closer to Jordan and Lebanon, and 
Syrian foreign fighters have even reached our own hemisphere in 
the Caribbean. ISIL and its ideology are metastasizing across 
the region.
    Foreign fighters are pouring into Iraq, Syria and Libya. 
Billions of people have been displaced--millions of people have 
been displaced, putting strains on our allies, and there are 
humanitarian crises throughout the Middle East.
    Our train and equip program in Syria is now only just 
getting off the ground, and according to the latest reports 
only 2,000 fighters have been identified and 400 have been 
vetted. Only 90 have begun training.
    On top of that, this past weekend one of the Syrian 
commanders participating in the U.S. train and equip program 
threatened to withdraw 1,000 of his fighters from the program 
because a DoD official said he would have to promise not to 
attack Assad.
    Incredibly, this is the same Assad who, according to press 
reports and the Twitter account of the U.S. Embassy in Syria 
yesterday, is providing advanced air support for ISIL and is 
actively seeking to bolster ISIL's position against the Syrian 
population in the moderate stronghold of Aleppo. The same Assad 
whose brutality the Embassy is now admitting is ISIL's best 
recruiting tool and who is being propped up by an Iranian 
regime using the Iranian Revolutionary Guard corps, its proxy 
Hezbollah and thousands of foreign fighters to fight on Assad's 
behalf. The same Assad who failed to disclose his entire 
chemical weapons arsenal and is using barrel bombs and chemical 
weapons to kill hundreds of thousands of his own people--almost 
a quarter of a million by last count.
    And yet, we are going to make our small number of trained 
Syrian fighters promise not to fight this monster? Iran is also 
funneling Assad billions of dollars to ensure his survival and 
since money is fungible, these are the same billions that were 
unfrozen as part of the disastrous nuclear negotiations.
    Our strategy in Iraq cannot and must not be separated from 
a strategy in Syria--one that removes Assad--and a strategy 
that takes on Iran. Iran will not work in the interest of the 
United States, no matter what dreams the administration might 
have.
    You cannot heal sectarian tensions in Iraq while allowing 
Iran to exacerbate them, including through its Shi'ite militias 
that are said to have committed horrific human rights 
violations.
    You cannot stop the flow of foreign fighters without 
getting tough on Turkey, and you cannot expect to have success 
with a minimal air strike campaign that refuses to deploy 
forward spotters to improve targeting.
    Our train and equip program in Iraq is scheduled to bring 
together approximately 5 to 10,000 people while ISIL is gaining 
1,000 recruits per month. We cannot wait a year for this 
program to be up and ready.
    The administration has laid out some lines of effort as 
part of its anti-ISIL strategy, including military and 
humanitarian support and counter finance and counter narrative 
efforts that we must continue with greater energy and better 
efficiency.
    But they do not address the fundamental miscalculations 
that this administration continues to make with regard to Assad 
and with regard to Iran, and they do not inspire confidence 
that this administration has much of a strategy at all.
    Beyond these basic contradictions of strategy, here are a 
few suggestions that I hope the administration, Congress and 
others consider immediately.
    Destroy or neutralize Assad's air capabilities. Sanction 
Assad and his military officials to hasten the collapse of his 
regime. Sanction any entity, including the Russians and 
Iranians, that are propping up Assad. Listen to our military 
commanders who say we should at least discuss the possibility 
of boots on the ground, including U.S. special forces in Iraqi 
military units.
    Also, stop telegraphing to our enemies what we are not 
willing to do and urge the Gulf Cooperation Council, the GCC, 
countries to put their boots on the ground.
    Consider the best way to equip anti-ISIL forces in Iraq 
whether that is by directly arming the Kurds, the Sunni tribes 
or integrated units. And finally, the United States Congress 
should approve an authorization for the use of military force 
that goes a lot further than what the President has requested 
and appropriately characterizes the scale, goals, capabilities 
and identity of the enemy.
    These are all ideas that could change our approach to ISIL 
from one of the bare minimum, which is what we have now, to one 
that is actually having a positive impact that the President 
claims he desires.
    With that, I turn to my friend, the ranking member, Mr. 
Deutch.
    Mr. Deutch. Thank you, Madam Chairman.
    Thanks to our witnesses for appearing here today to help us 
understand what happened in Ramadi and how it affects the 
international effort to combat ISIS in Iraq and Syria.
    ISIS fighters have been on the outskirts of Ramadi for 
nearly 1\1/2\ years. While Iraqi security forces have 
maintained fragile control over most of the city, there have 
been new heavy fighting in areas under ISIS control for months.
    In the midst of a sandstorm, ISIS fighter detonated a 
series of bombs that, as the New York Times described it, 
allowed it to take advantage of a pause in air strikes and 
overwhelm Iraqi forces.
    While it would be a mistake to compare the fall of Ramadi 
to the swift fall of Fallujah or Mosul, nonetheless it was a 
serious setback with devastating consequences for the innocent 
civilians of Ramadi, the morale of Iraqi troops and for U.S. 
and coalition strategy.
    The capture of Ramadi was further compounded by ISIS' 
seizure of the ancient Syrian city of Palmyra the following 
day. The fall of Ramadi, unfortunately, gave ISIS a public 
relations win.
    It now holds the capital of Anbar Province, the largest 
Sunni province in Iraq. This is why now more than ever it is 
critical that the Iraqi Government ramps up its outreach to 
Sunni tribal areas and pushes ahead with Prime Minister Abadi's 
stated goals of an inclusive government and society.
    The United States should be actively engaged in advising 
and supporting Prime Minister Abadi in these efforts, and while 
the popular mobilization forces and other Shi'ite militias have 
been effective on the battlefield, the Abadi government must 
have an active strategy in place to ensure that these militias 
do not exploit the areas they help defend or liberate.
    In the days after Ramadi fell, Secretary of Defense Carter 
made the bold assessment on national television that Iraqi 
troops have no will to fight. For years the U.S. has invested 
heavily in the training of Iraqi forces.
    So why does it continue to appear at least that Iraqi 
forces are dropping their weapons and running? Is this an 
accurate portrayal of what occurred in Ramadi despite months of 
reinforced U.S. training? I hope our witnesses will speak to 
that.
    The administration does have a strategy to combat ISIS but 
I have to question how it can be effective against a group that 
seems to constantly adapt.
    This conflict needs a comprehensive strategy that doesn't 
just defeat ISIS on the battlefield but also cuts off its 
funding and its propaganda machine, and I am unsure as to 
whether we are being successful in those areas and I hope our 
witnesses will speak to that as well.
    The victories in Ramadi and Palmyra just weeks ago gave 
ISIS the appearance of having momentum on its side. Now, in 
Syria yesterday ISIS advanced on opposition-held territory 
north of Aleppo.
    Reports from opposition leaders claim there seem to have 
been coordination with the regime with Assad's air force 
striking in what seemed to be a supportive ISIS ground 
campaign, and I would welcome our witnesses' assessment of 
these claims and, if true, what that means going forward.
    Now, I have admittedly been frustrated by what seems to be 
a lack of attention to the Syrian front of this conflict and we 
will never effectively degrade and destroy ISIS if we don't 
simultaneously deal with the problem of the heinous Assad 
regime, which opened the space for ISIS' rise to begin with.
    Part of this conflict is a result of sheer lack of 
governance. In many areas, ISIS is filling a void in terms of 
services and security.
    We have heard time and time again that in many parts of 
Syria people have aligned with ISIS not because of ideological 
agreement but because it was the only group offering them 
protection.
    The international community needs to focus greater 
attention on a long-term solution, and I was pleased to hear 
General Allen's comments yesterday that there is no place for 
Assad in a long-term Syria solution.
    I am concerned with the growing chorus of frustration with 
the U.S. that we hear from the Syrian opposition, and while our 
train and equip programs are now slowly advancing, the question 
is are we being as effective as possible in supporting the 
Syrian opposition.
    And finally, I would like to take just a remaining moment 
or two to remind everyone, the American people and the 
international community, of the devastating--the devastating 
humanitarian crisis in Iraq and Syria. The people of Syria 
continue to suffer under Assad's barbarity--barrel bombs, 
chlorine gas attacks, ongoing brutal repression.
    In Iraq, the number of displaced people grows daily as ISIS 
moves in on new territory. Women and children are at extreme 
risk of violence and we continue to hear reports of hundreds of 
people slaughtered in days.
    We have to remember that real--that the real and grave 
consequences that this conflict is having on innocent 
civilians.
    Madam Chairman, I know that you share these concerns. I 
thank you for your continued commitment--your continued 
commitment to drawing attention to the humanitarian aspect of 
this devastating conflict.
    It is one that must continue to be at the forefront of all 
of our discussions and I would thank--offer thanks again to our 
witnesses for appearing here today.
    I look forward to your insights and I yield back the 
balance of my time.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch. I will 
recognize members for 1 minute for their opening statement, 
starting with Mr. Issa of California.
    Mr. Issa. Thank you, Madam Chair, and thanks for bringing 
this distinguished panel before us today.
    I am going to be particularly interested in hearing from 
Dr. Spence. Fact is, we are dealing today with a policy that he 
was at the center of and is intimately familiar with.
    This is not some sort of hypothetical. We have been 
fighting a war--we have been fighting a war that is in fact 
fighting against a tide.
    We have continuously found ourselves siding with 
organizations like the Maliki government, one in which the 
Shi'a are perfectly happy to repress the Sunni but not willing 
to fight to protect the Sunni from extremism.
    The Sunnis, on the other hand, are perfectly willing to 
allow others to fight for them but they certainly are not in a 
position to remove a Sunni extremist group only to be, again, 
held hostage to a government that still has former Prime 
Minister Maliki in many ways as the puppeteer of that regime.
    The fact is that when Ash Carter, rightfully so, said that 
we do have an inherent problem, I began looking and saying when 
did we have that problem last.
    And answer was the last time we had this problem we were 
backing Chiang Kai-shek over Mao Zedong, and the reality is we 
are not picking the sides at this time in Syria or Iraq in a 
way in which we can find a path with active support to a 
solution that the American people can believe in.
    And I look forward to asking each of the witnesses a series 
of questions. I thank the chairwoman for her indulgence.
    Ms. Ros-Lehtinen. Thank you, Mr. Issa. Ms. Frankel.
    Ms. Frankel. Thank you, Madame Chair.
    I, really, have one significant question that I would like 
each of you to address, if you could, and what I would like to 
know is is this fight or struggle against ISIL--in your 
opinion, is it going to require the United States to put more 
troops in harm's way.
    That is my question. I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Ms. Frankel.
    I now would like to introduce our expert witnesses. First, 
we are pleased to welcome back Dr. Michael Rubin, who is a 
resident scholar at the American Enterprise Institute.
    Dr. Rubin is a former DoD advisor on international security 
affairs and a senior editor of the Middle East Quarterly. Dr. 
Rubin was also a lecturer at Johns Hopkins University as well 
as a senior lecturer at the Naval Post-Graduate School. 
Welcome, Dr. Rubin.
    Second, we welcome Dr. Anthony Cordesman, the Arleigh Burke 
chair in strategy at the Center for Strategic and International 
Studies.
    Previously, he has served as the director of intelligence 
assessment in the Office of the Secretary of Defense as well as 
director of policy and planning at the Department of Energy. 
Welcome, Dr. Cordesman.
    And last but certainly not least, we also want to welcome 
back Dr. Matthew Spence. Dr. Spence is a senior fellow at Yale 
University's Jackson Institute for International Affairs.
    Formerly, he served as the Deputy Assistant Secretary of 
Defense for the Middle East and has served in the White House 
as special assistant to the President and director of 
international economics at the National Security Council.
    Welcome, gentlemen, and we will start with Dr. Rubin.

 STATEMENT OF MICHAEL RUBIN, PH.D., RESIDENT SCHOLAR, AMERICAN 
                      ENTERPRISE INSTITUTE

    Mr. Rubin. Chairman Ros-Lehtinen, Ranking Member Deutch, 
honorable members, thank you for the opportunity to testify.
    I have submitted in my written testimony detailed analysis 
and recommendations, but as time is short, please allow me only 
to highlight a few key points.
    Suffice to say the U.S. strategy to degrade and ultimately 
destroy the Islamic State has not succeeded. Any comprehensive 
strategy will combine the diplomatic with the military.
    There is a correlation between Turkey's visa policies and 
those nationalities which travel to the Islamic State. 
Moroccans and Tunisians either do not need visas to enter 
Turkey or can get them on demand.
    Algerians, however need visas. While several thousand 
Moroccans and Tunisians have traveled to Syria, only a handful 
of Algerians have, though Algerians fight for the Islamic State 
elsewhere.
    A low-cost high-value reform would be for Turkey to end 
visa waivers or visas on demand for those under the age of 40 
from countries which provide the bulk of Islamic State 
recruits. Drying up the flow of recruits across the Turkish-
Syrian frontier is essential.
    The Iraqi army does fight. They fought in Ramadi for months 
before losing. They regained control in Baoji. That the Islamic 
State can deploy hundreds and even whole parades shows a lack 
of U.S. intelligence and/or unwillingness to use air power to 
maximum advantage.
    The Iraqi military must maintain its qualitative military 
edge. If U.S. authorities do not believe it wise to provide 
weaponry to the Iraqi army, then they must substitute air 
power, special forces and trainers to assist Iraqi forces.
    While it is essential our allies be armed, some seek 
advantage from the crisis to strengthen their own political 
hand vis-a-vis rivals.
    Under Prime Minister Abadi, Baghdad has supplied both light 
and medium weaponry to the Kurdistan regional government 
including MRAPs.
    The Kurds have also imported weaponry directly from Iran, 
Germany, Hungary and Bulgaria. According to the State 
Department, the Kurds have anti-tank missiles that Baghdad does 
not have but needed in Ramadi.
    Alas, the Kurds still distribute weapons to peshmerga based 
on political loyalty to the Kurdistan Democratic Party rather 
than to areas of greatest need. This puts Kirkuk at risk.
    The United States must coordinate deliveries through 
Baghdad but monitor their distribution both from Baghdad to 
Kurdistan and then from Kurdish authorities to the front where 
needed.
    Rather than exacerbate divisions by providing weaponry on 
an ethnic or sectarian basis, U.S. equipment should be 
designated for Iraqi army units which incorporate Iraqi 
diversity.
    Providing weaponry directly to Iraqi, Kurdistan or Sunni 
tribes empowers hardline pro-Iranian factions and undercuts 
Abadi and his more moderate allies across the Shi'ite spectrum.
    We cannot look a gift horse in the mouth. The group with 
the greatest success against the Islamic State have been the 
Syrian Kurds.
    They are not perfect but they are secular, tolerant 
religiously and generally ethnically as well and a relative 
haven for women's freedom. Washington should not treat Syrian 
Kurds as pariahs simply out of deference to Turkey, which has 
proven itself an unreliable ally at best.
    The long-term cost of Iranian military presence in Iraq is 
greater than the gain derived from Iranian personnel battling 
the Islamic State. Iranian units exacerbate sectarianism.
    Still, the United States must differentiate between 
Iranian-backed militias and Shi'ite volunteers. Not every 
Shi'ite is an Iranian puppet. But painting them all with the 
same brush risks creating a self-fulfilling prophecy.
    U.S. diplomats should work with the Iraqi Government to 
create the bureaucratic reforms necessary to implement bottom-
up administrative federalism in liberated districts. This 
involves changes in administrative law and procedure rather 
than constitutional amendments.
    U.S. officials must not incentivize sectarian violence by 
rewarding it even as they try to bolster the central 
government's delivery of services across ethnic and sectarian 
lines.
    We must recognize that the motivation for the Islamic State 
is ideological and not based in petty political grievances. 
That recruitment and residence of the Islamic State reaches 
from Malaysia to Morocco illustrates this.
    It is not all about Baghdad. Unless and until there is 
bipartisan consensus to do what is necessary to defeat the 
Islamic State before it targets the American homeland and until 
there is an authorization for the use of military force that 
empowers rather than restricts American forces combating the 
Islamic State, then it would be unfair to American servicemen 
to put them in harm's way.
    Likewise, it would be dangerous to conflate the mission to 
defeat the Islamic State with a very different peacekeeping 
mission afterwards. That is a mission about which we seldom 
talk.
    And with that, I conclude my remarks. Thank you very much.
    [The prepared statement of Mr. Rubin follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                  ----------                              

    Ms. Ros-Lehtinen. Thank you so much, Dr. Rubin.
    Dr. Cordesman.

  STATEMENT OF ANTHONY H. CORDESMAN, PH.D., ARLEIGH A. BURKE 
   CHAIR IN STRATEGY, CENTER FOR STRATEGIC AND INTERNATIONAL 
                            STUDIES

    Mr. Cordesman. Thank you, and thank you for the opportunity 
to testify.
    It is possible to focus on the immediate issue----
    Ms. Ros-Lehtinen. Move your microphone a little bit closer. 
Thank you.
    Mr. Cordesman. It is possible to focus on the immediate 
issue in Ramadi, and yet when I look at Tikrit I am not sure 
that it was any more of a victory.
    If you lose the population, if you lose the city as a 
functioning area, if essentially you have liberate a desert 
that simply has buildings in it, you have not achieved a goal 
and I think both are a warning of--or you used, Madam Chairman, 
repetitively the need for a strategy and for a recognition that 
no one defeat or issue here is critical. The problem is to have 
some consistent way of dealing with this over a period of 
years.
    Yes, I think we need to look beyond ISIL and al-Nusra and 
focus on the broader problems and tensions in both Iraq and 
Syria. I think it is clear you can't have a successful strategy 
in western Iraq that doesn't deal with the problems in eastern 
Syria.
    We cannot ignore Iran and focus on the nuclear issue to the 
exclusion of the other threats that are affected here. Frankly, 
the train and assist mission, to me, has been too limited, 
badly focused and too distant from the front and the need to 
actually work with combat forces from the start, repeats 
mistakes I have seen in other wars and it is an area where we 
do need change.
    The air campaign is one where at least publically we have 
not been able to explain either what we are doing or what its 
focus is and it certainly seems to be too limited to achieve a 
key level of effectiveness.
    We don't seem to be able to explain the weapons flow that 
actually reaches Iraqi troops or the problems that our train 
and assist group has in working with them.
    But having said all of that which affects the short-term 
goal, what bothers me on the basis of what happened in our 
previous war in Iraq and in Afghanistan is if you do not have a 
strategy which is public and a real strategy, if you do not 
have requirements to report on the progress you have in meeting 
that strategy--whether it works, what it costs and whether it 
is successful--you go on from incident to incident without ever 
really being able to assess what you are doing or demonstrating 
you have a coherent plan to deal with it.
    We don't have the equivalent of a 1230 report coming out of 
the Department of Defense. We have no meaningful reporting 
coming out of the Department of State.
    After some 50 years in the United States Government, I have 
never seen a more meaningless report on the structure of a war 
than came out of the so-called lead inspector general on 
Inherent Resolve.
    It is, as a public relations exercise, inept. And what I am 
suggesting is that as you react to this defeat, there are some 
concrete steps you can take. You can't legislate strategy but 
you can insist that one be reported on.
    You can demand that that strategy be explained in terms of 
some form of net assessment. You can call for milestones, 
estimates of resources, progress reporting and real measures of 
effectiveness.
    You can create the equivalent of a special inspector 
general, as you did in terms of Iraq and the Afghan war. You 
can force regular outside and independent reporting on where we 
are going and you can have that assess the costs and the 
measures of effectiveness.
    These are measures which, I think, may be longer term than 
the more immediate suggestions I made in my written testimony.
    But, quite frankly, if we go on with even less 
understanding, transparency and responsibility than we managed 
to have in reporting on the Iraq war and the Afghan war, I 
don't think that any reaction to one defeat or one set of 
problems is going to be relevant.
    We simply have to establish a basis for a strategy, 
transparency and credibility.
    [The prepared statement of Mr. Cordesman follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much, Dr. Cordesman.
    Dr. Spence.

  STATEMENT OF MATTHEW SPENCE, PH.D. (FORMER DEPUTY ASSISTANT 
 SECRETARY FOR MIDDLE EAST POLICY, U.S. DEPARTMENT OF DEFENSE)

    Mr. Spence. Thank you, Chairman Ros-Lehtinen, Ranking 
Member Deutch and distinguished members of the subcommittee. 
Thank you for inviting me to speak with you today about the 
situation in Iraq and our strategy to combat ISIL.
    I value talking regularly with you in my role in the 
Department of Defense and I appreciate to continue to have that 
candid dialogue in my personal capacity now.
    The ISIL threat is complex and the situation is rapidly 
evolving. I will summarize my statement with the following 
three areas. First, let me briefly outline how I view the 
current strategy to counter ISIL.
    Second, I will offer some reflections about what happened 
in Ramadi and what we can learn from it. And third, I will 
share a few thoughts about how we can adjust the current 
strategy, given the rapidly changing battlefield environment.
    Quite frankly, the enemy is adapting and learning and we 
must as well. The events in Ramadi in the past weeks have 
created an extremely serious situation. We must learn from 
ISIL's successes in Ramadi and adapt to new conditions on the 
battlefield.
    But we also cannot view Ramadi as the sole referendum on a 
long-term strategy to combat ISIL. The causes of ISIL's rise 
are deep and complex. It is a tenacious and adaptive enemy. It 
operates in a joint battlefield between Iraq and Syria.
    Combatting ISIL, therefore, requires a joint strategy 
toward Iraq and Syria. Taking on ISIL and Iraq alone will not 
accomplish our objectives.
    We need to think regionally as well as strategically, and 
Iran plays a complex role both fighting ISIL on its own while 
also pursuing a broader destabilizing agenda in the region.
    That is why combatting ISIL requires a long-term campaign 
that will take several years and we are in the first year of 
what was designed as a multi-year campaign.
    Now, let me offer some context, if I may. Last June, ISIL 
moved across Iraq with unprecedented speed and stunned the 
world with its military victories. The underlining causes of 
ISIL's success, however, were more than weapons and battlefield 
tactics.
    Assad's brutality and the conflict in Syria created chaos 
that allowed ISIL to seize territory. The border between Iraq 
and Syria became, effectively, meaningless.
    The Iraqi Government alienated large segments of the Sunni 
population and was not governing effectively and lacked the 
required senior professional military leaders to direct Iraqi 
security forces.
    These political conditions will not change overnight and 
they cannot be changed with military force alone. That said, 
recognizing that military force alone cannot effectively 
address ISIL does not mean that military power does not have a 
significant role. It does.
    There are many elements to the United States strategy--
trying to work on the terrorist foreign fighters, the ideology 
and the terrorist funding. I will just focus briefly on what I 
see are three elements of the military aspect of the strategy.
    The first part of the strategy is political. As I said, 
ISIL thrives on corruption, alienation, weak governance and the 
ensuing political chaos. No amount of soldiers we could deploy, 
even the best trained Americans and Iraqis, can fill the vacuum 
of poor governance.
    The Iraqi governance must take the lead in designing, 
executing and maintaining military operations. America cannot 
be more committed to Iraq's success than Iraq is.
    Second, however, a key part of our military efforts must be 
the use of unique and powerful American and coalition military 
capabilities.
    We must use unique U.S. and coalition military capabilities 
to gain an advantage over ISIL. We should not be fighting a 
fair fight against ISIL and we should use our unique 
capabilities from the air.
    The accommodation of U.S. and coalition and partner air 
power with Iraqi and peshmerga ground operations has pushed 
back Iraq and has made a difference. We need to be doing more 
with our air power, however.
    And then finally, because air power alone cannot create the 
conditions on the ground to combat ISIL, a third and key 
element of our strategy must be focusing on building the 
capacity of the Iraqi security forces, peshmerga ground forces 
as well as local fighters in Syria.
    Now, that said, I want to briefly recommend a few 
adjustments to our strategy, and in recommending those 
adjustments I briefly want to recommend four principles to keep 
in mind.
    First, our effort should be built around sustainability. 
Will additional U.S. support create the incentives for the 
Iraqi forces to own the fight?
    Second, we must balance any support the United States 
provides against the risk to American service members. Third, 
we cannot view Iraq--view ISIL in isolation in Iraq. Coalition 
forces cannot fight Iraq--ISIL in Iraq only to allow them 
sanctuary in Syria. And fourth, the United States must support 
and maintain the international coalition.
    Given that, if I may, I both recommend adjustments in each 
of the areas I mentioned before. First, in training, forward-
deployed U.S. special forces, advisors within Iraqi units 
should be used more.
    Such forces have been deployed in al-Assad airbase in 
western Anbar. U.S. special forces can be deployed in eastern 
Anbar as a platform for working with Sunni tribes in the east. 
Embedding U.S. forces can help inject energy into leadership 
development of new and weaker Iraqi commanders and help stand 
them up more quickly.
    It was the failure of unit leadership in Iraq, the failure 
of that type of leadership, which is necessary for good 
organization and good morale, which I think explains some of 
what we saw in the recent weeks.
    Second, in U.S. unique military assets we must make better 
use of air power, expanded target sets for U.S. and coalition 
aircraft, should we need it. Now, this must be done carefully 
to minimize civilian casualties.
    However, we should consider deploying forward American and 
coalition air controllers to targeting and expediting air 
strikes. We must surge in better weapons to take on the large 
suicide truck bombs which caused such devastation that we saw 
in the past weeks.
    And then finally, politically, the United States and 
coalition forces must press the Iraqi Government harder to more 
actively enlist Sunni fighters in this campaign.
    In conclusion, Madam Chairman, what I would say is Iraq and 
Syria show us what a tremendous adversary ISIL is. They are 
adapting quickly. They are learning.
    We must be more nimble with them. This is what I recommend 
now. But as the situation evolves, we should not fail to look 
at more bold options as things have adjusted to adjust to the 
realities of what the enemy is doing on the battlefield.
    Thank you for the opportunity.
    [The prepared statement of Mr. Spence follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Ms. Ros-Lehtinen. Excellent recommendations. Thank you to 
all of our panelists. I will begin the question and answer 
period.
    I wanted to ask our panelists to comment on today's New 
York Times article that says Assad's forces may be aiding the 
new ISIS surge:

          ``Building on recent gains in Iraq and Syria, Islamic 
        State militants are marching across northern Syria 
        toward Aleppo, Syria's largest city, helped along, 
        their opponents say, by the forces of President Bashar 
        al-Assad. . .
          ``The rebels complain that the United States has 
        refrained from contributing air support to help them 
        fend off simultaneous attacks by the government and the 
        Islamic State.''

    And the article continues:

          ``The Twitter account of the long-closed United 
        States Embassy in Syria made its strongest statement 
        yet about Mr. Assad's tactics.
          `` `Reports indicate that the regime is making air 
        strikes in support of ISIL's advance on Aleppo, aiding 
        extremists against Syrian populations,' the Embassy 
        said in a series of Twitter posts.
          ``In another post, it added that the government war 
        planes were `not only avoiding ISIL lines but actively 
        seeking to bolster their position.'
          ``Neither American officials nor Syrian insurgents 
        have provided proof of such direct coordination, though 
        it has long been alleged by the insurgents.''

    Dr. Rubin, what do you make of that?
    Mr. Rubin. I would say that President Assad makes 
Machiavelli look like Mother Teresa. You know, when I am in the 
region often times I hear the conspiracy theory which is 
pervasive that the Americans are behind the Islamic State, and 
this is a conspiracy theory which has been pushed forward by 
Supreme Leader Ali Khamenei of Iran on numerous occasions.
    The way I counter this is to remind people that before the 
United States began air operations in Syria the Islamic State 
was still centered at Raqqah. The Syrian air force, under the 
command of Bashar al-Assad, had dominance over the skies of 
Syria, and rather than take on the Islamic State he preferred 
to drop barrel bombs on Syrian civilians.
    So I fully concur that we may have a situation in which 
Bashar al-Assad is acting in a way that might not appear at 
first glance logical or that Bashar al-Assad may not be as 
committed to defeating the Islamic State as some people would 
like to argue.
    Ms. Ros-Lehtinen. Thank you.
    And to our other witnesses, I wanted to ask you what are 
the dangers of--if the administration again relies on Russia or 
Iran in the fight against ISIL this time. Because just 
yesterday, Deputy Secretary of State Tony Blinken held a press 
availability with Prime Minister Abadi and the French Foreign 
Minister following a meeting of some of the coalition partners 
in the fight against ISIL.
    He was asked a question by a reporter about how the U.S. 
may have told Iraq that Baghdad will be able to buy weapons 
from Russia and Iran, and it just seems like--is that the right 
message we should be sending or what should we be doing in 
respect to relying on Russia and telling Baghdad it is okay to 
rely on Russia and Iran? Dr. Cordesman.
    Mr. Cordesman. Let me begin by saying first Iran has 
provided weapons and aircraft to Iraq. Russia has provided 
weapons, and Iraq is a sovereign country and if it chooses to 
use its own money to buy weapons from other countries these are 
not some things where we can do more than attempt to influence 
the situation.
    What would bother me much more seriously is exactly what is 
the strategy we are using to arm and develop the Iraqi forces, 
how well does the train and assist mission actually work in 
ensuring the arms get there or even to the training base 
because there have been major problems simply in getting low-
level training ammunition into rear area training activities.
    We are not going to be able to limit all of these things by 
asking them not to go to other suppliers. The real issue, I 
think, is are we going to provide an effective timely flow and 
one that gives us the kind of influence and leverage that can 
help push them both toward unity and military effectiveness. I 
think that is the key issue.
    Ms. Ros-Lehtinen. Thank you, Dr. Cordesman.
    Dr. Spence.
    Mr. Spence. Madam Chairman, I think sound strategy requires 
looking two steps ahead. In the near term, Iran is fighting 
ISIL and we have a shared enemy.
    In the longer term, Iran has a more destabilizing agenda 
both in Iraq to have control of large parts of the Iraqi state, 
and in Syria as well, and we should be under no illusions of 
what a long-term partnership with Iran would do.
    So in the near term, as Dr. Cordesman said, there is a 
reality of the funding that Iran and weaponizing that Iran is 
conducting.
    However, as we do this we need to look at the steps ahead 
would be--what the consequences will be if we knowingly allowed 
Iran to get a type of foothold in these places with its larger 
destabilizing region has.
    Ultimately, what we need to do is make sure we have more 
stable and effective governance not just when ISIL is driven 
out but there is something strong to put in place in the vacuum 
that will be left when ISIL is gone.
    Ms. Ros-Lehtinen. Thank you so much, gentlemen. Mr. Deutch 
is recognized.
    Mr. Deutch. Hardly. Hardly. Thank you, Madam Chairman.
    Dr. Spence, let me follow up on that last point, which is 
what is going to be there when ISIL is gone. Can you--in your, 
I think, rightful efforts to look two steps ahead what should 
that look like?
    Mr. Spence. You know, Congressman, I think it is enormously 
difficult and it is different in Iraq and in Syria. I mean, the 
basic principle is there needs to be an inclusive government 
that both Sunnis as well as Shi'a or Alawites feel a stake in 
the central government that they don't need to turn to some 
other non-state actor.
    Executing that is very hard. I think in Iraq what it looks 
like in large parts is trying to enlist local fighters to fight 
against ISIL in the areas where they are.
    They have an incentive, they know the area better and we 
need to have these types of Sunni fighters who have an 
incentive to stop ISIL from murdering their families but also 
be brought into some larger structure in the Iraqi Government.
    So I think it is largely recruiting local fighters. In 
Syria, it is much, much harder because as imperfect a partner 
as Abadi is, even though he is taking good steps, we have the 
opposite of that in Syria.
    Of course, we have an enemy in Assad, and I think that is 
why as slow as the train and equip program in Syria is moving 
that is why trying to recruit and train and find some Syrian 
fighters to get some victories in villages in Syria that we 
have been trying to work with and create some good government 
can also provide the military muscle to provide both governance 
as well as some stable sense of state authority so there is a 
real alternative between the devil of Assad and the other devil 
that is ISIL.
    Mr. Deutch. Can we really be successful in our train and 
equip in Syria if the focus--if we are training and equipping 
only to take on ISIS when Assad continues to drop barrel bombs 
and chlorine on his own people?
    Mr. Spence. You know, it is hard. I mean, I think in any 
event the most immediate threat to American interests still are 
ISIL. But the longer cause that allowed ISIL to take place is, 
of course, Assad.
    Now, part of the issue that we face is, you know, the 
program that is authorized by Congress is not authorized to 
take on Assad.
    You know, one of the purposes of the program is to create 
the conditions to create a political settlement to do that. The 
issue we face right now, I think--before we were to openly take 
on Assad in a military way we need to be very clear about what 
happens on day two and the years that would follow.
    And right now I think we need to do more work to strengthen 
the opposition to do that before we would have a concerted 
effort right now to go after Assad. I think it is an issue of 
timing and sequencing.
    Mr. Deutch. Right. Dr. Rubin, in--as we assess what to do 
in Syria we don't want to be in a position, do we, where we 
succeed in pushing back ISIS only to be left with an al-Qaeda-
backed government there?
    Mr. Rubin. That is correct. And within--you can't allow a 
safe haven to develop anywhere. Terrorists love a vacuum and 
ungoverned spaces are a chief problem both in Iraq and in areas 
under ISIS control and in Syria.
    One of the problems in Iraq post-liberation of territories 
seized by ISIS is going to be the leadership of the Sunni 
community and the problem is the Kurds have a definite 
leadership.
    The Shi'ites have a definite leadership. Saddam Hussein cut 
off the Sunni leadership at its knees and it never really has 
redeveloped. Some in the Sunni leadership have tried to gamble 
with the Islamic State, assuming they could use it as a wedge 
against Prime Minister Maliki. They failed. They have lost 
support.
    The question is what strategy do we have to build this up, 
because at this point when the Sunnis go to Prime Minister 
Abadi their chief demand is not to listen to any of the other 
Sunni groups who are going to Prime Minister Abadi.
    Mr. Deutch. Dr. Cordesman, in Iraq do you--can you comment 
on Secretary Carter's assessment of Iraqi forces and whether it 
is an accurate assessment to suggest that perhaps they don't 
have the will to defend themselves?
    Where does the truth lie? If there is any truth to that 
then what is it ultimately that we can hope to accomplish, if 
that is the case?
    Mr. Cordesman. First, I think there is a will to fight, 
depending on the unit. Part of the problem is that under Maliki 
you used the military forces essentially as a political weapon 
to suppress opposition and against the Sunni population.
    The legacy is what happened that virtually destroyed a good 
part of the Iraqi army. Rebuilding that, we have said, will 
take several years.
    Now, one of the units in Ramadi actually held together 
quite well for a long amount of time. It eventually simply was 
worn out and one of the problems you have when you talk about 
the will to fight is you need to look at the order of battle.
    Remember, they are on the scene--that is, the Islamic State 
or ISIL's forces. They know the weaknesses in the local Iraqi 
forces. If they can smash through or in, go around the better 
units, take advantage of the weaker units or the police, they 
can disrupt and shatter a defense over time, and they have done 
that.
    But it is also true if you want the will to fight you need 
a government that can get ammunition and reinforcements there 
on time. The problems are not simply forward.
    They are just as serious throughout the entire structure of 
Iraqi defense and if we don't really find a way to advise and 
assist to deal with the broad operations you are going to have 
unit after unit, unless this changes, which runs out of 
ammunition, isn't reinforced in time, isn't pulled out and is 
exhausted, and you are going to find this repeated.
    Mr. Deutch. Thank you. Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch.
    Votes have been moved up from the scheduled time so I will 
ask our--the rest of our members to limit their question and 
answer period to 4 minutes so everyone can get a shot at it.
    Mr. Issa.
    Mr. Issa. Thank you, Madam Chair.
    I have 32 prepared questions. Would you all agree to 
receive them and respond for the record?
    Mr. Rubin. Yes.
    Mr. Spence. Yes.
    Mr. Issa. Let the record reflect that all witnesses 
answered in the affirmative.
    Dr. Spence, with my remaining time, what I would like to do 
is I would like to go through a couple of items that are not in 
that long list and one of them is you were both in two 
different major roles in the administration at a time in which 
the administration rejected safe havens in Syria either to deal 
with the plight of Syrians going to Lebanon or into Jordan or 
into Turkey.
    Do you regret that? A yes or no is fine.
    Mr. Spence. No, I don't right now. No.
    Mr. Issa. So you think it is fine that in fact Lebanon is 
essentially more than 25 percent Syrian refugees, Jordan is 
maintaining huge amounts of refugees and, in fact, our 
situation with Turkey is one in which we depend on a Turkish 
Government that is at best marginal in their real support for 
deterring ISIL while in fact they continue to insist that we 
overturn the Assad government as a precondition of full 
cooperation.
    Isn't it time that we begin looking at having territory 
within Syria in which we control it, he is denied ability to 
fly, even if it is not to overturn the Assad government but 
rather to have a safe haven in which we can prepare Syrian 
troops to take on ISIL?
    Mr. Spence. I think--you know, in response to your question 
I think a few things. I think, first, I am extremely concerned 
about the refugee situation, about the neighbors, and I think--
--
    Mr. Issa. The Lebanese appreciate that. Send them a couple 
billion dollars. Answer the question because I am deeply 
concerned that a failed strategy continues to be used in Syria, 
one in which we say we are going to take out the Assad 
government but we don't, but we are perfectly willing to 
destabilize that government so that ISIL in fact can grow 
faster than any of the troops that we want to prepare to cause 
a regime change.
    Mr. Spence. Well, Congressman, I think the issue that we 
need to focus on is what is the best way of accomplishing this 
end goal that you are talking about and that is both minimizing 
the damage in refugees that comes to the countries in the 
region.
    In Lebanon, for example, it is not just 25 percent ISIL 
refugees. Over half of the country could be refugees. That is 
enormously concerning.
    The concern I have about safe havens and what would happen 
if Assad immediately fell is what would the results be if it 
happened right away and how do we sustain it.
    Mr. Issa. So it is your position, as someone who just left 
the administration, that Assad falling from government today 
would be adverse to our best interest?
    Mr. Spence. I am not saying that. But I am saying is before 
the United States were to take action to push Assad out we need 
to think very carefully about what comes in Assad's----
    Mr. Issa. So it is your--during your tenure at National 
Security and your tenure, obviously, at Defense do you believe 
we could have diminished or eliminated Assad's military 
supremacy over his own troops in his own country?
    Mr. Spence. I think we were doing a fair amount to do that. 
I think the goal needs to be it is not just the fall of Assad. 
It is what comes in Assad's place.
    Mr. Issa. So would you say--would you say that we used 
efforts to diminish and eliminate his air supremacy? From my 
reports, his helicopters, very easy targets for performance 
aircraft, are not in fact on a daily basis targets that we go 
after and certainly not his air bases. Isn't that correct?
    Mr. Spence. I think there are a number of things that we 
did to reduce the fighting power of Assad, both----
    Mr. Issa. No, that wasn't the question. Assad's ability, as 
the chairwoman said, Assad's ability to punish their own people 
and often their own people and not ISIL was never diminished.
    Assad's ability to rain down terror from the air continues 
today, a capability that I am sure you agree, Doctor, we had 
the capability to diminish and we did not and currently do not.
    Dr. Cordesman, perhaps you could weigh in on this. I don't 
think Dr. Spence is going to give me the answer I would like.
    Mr. Cordesman. I don't know if I can give you the answer 
you would like. But I think that we do have the ability to put 
far more pressure on Syria and its use of force than we have 
exercised.
    From the start, I think we exaggerated their capabilities 
and willingness to react to that pressure, and certainly it 
isn't just outside refugees. You have got 7 million displaced 
people in the country without homes or jobs.
    Mr. Issa. Or safe havens to live in.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Cordesman. More than half the population.
    Ms. Ros-Lehtinen. Thank you, Dr. Cordesman.
    Mr. Issa. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. We all strive to please Mr. Issa but it 
is an impossible task.
    Mr. Higgins of New York is recognized.
    Mr. Higgins. Thank you, Madam Chair, and thank you, 
gentlemen, for being here.
    You know, coalition forces met recently and the conclusion 
was that our strategy is going to continue as it is.
    You know, you look at Ramadi and Palmyra and the fact that 
ISIS troops are far outnumbered by coalition forces. You look 
at the chaos in Iraq with a fighting force that just doesn't 
seem to be up for the task.
    How does this strategy that is in place--how does it 
succeed? Dr. Rubin.
    Mr. Rubin. The strategy which is in place does not succeed 
and on September 10th, 2014, the President laid out a goal 
which was to degrade and destroy the Islamic State. It is clear 
that that strategy is not working.
    Mr. Higgins. Dr. Cordesman.
    Mr. Cordesman. In all fairness, we have said this would 
take two to 3 years and it would take us more than a year to 
train even 9 to 12 Iraqi brigades.
    But if this strategy is ever going to work, it is going to 
work far too slowly. It is far from clear that it is going to 
have anything like the political and civil effects that are 
necessary and it is a strategy for Iraq that doesn't seem to 
have any strategy for Syria, because if you are training 5,000 
people 90 people at a time, I, frankly, don't see the point.
    Mr. Higgins. Dr. Spence.
    Mr. Spence. I think--I think both the strategy will take 
time by the ways we are executing it. So, first, I think there, 
of course, is a role for American significant military power 
that must be used.
    But second, if you are going to be working through local 
partners, which I think is the sustainable way to do it, 
training local partners takes time.
    I mean, the genius of America's military is not the 
technology we deploy but it is the leadership, our tactics and 
how our men serve in combat, and training that leadership at 
the unit level takes time and is extremely difficult.
    Mr. Higgins. Late last year there was an announcement that 
Prime Minister Abadi had agreed to or came to an agreement with 
the Kurds that they would receive $1 billion for their 
peshmerga and they would receive 17 percent of national oil 
revenues in perpetuity.
    It seemed to be a good start to the new administration in 
that he appeared to be the Prime Minister developing a strategy 
for a coalition to defeat ISIS in Iraq. What happened there and 
where is the peshmerga in these fights?
    Mr. Spence. So I think the peshmerga in these fights have, 
I mean, a few things. I think, first, a key part of the 
strategy needs to continue to be encouraging Abadi to reach out 
both to the Kurds as well as Sunnis in the way that he takes 
steps to do it and push him to follow through on those 
commitments.
    I think on arming the peshmerga what the international 
coalition did in July was try to mobilize an enormous effort to 
provide large amounts of equipment and training and that has 
been flowing to Kurdish fighters and I think that is part of 
the reasons why we have seen Kurdish fighters able to be 
effective on the ground in some very, very difficult fights.
    Mr. Higgins. Dr. Rubin.
    Mr. Rubin. I want to reemphasize the point that the Kurdish 
regional government has not been fully truthful when they say 
that they have not received weaponry from the Iraqi Government.
    If they have not received enough weaponry it is simply 
because the Iraqi Government also has not received enough 
weaponry. The bigger problem that undercuts Kurdish peshmerga 
effectiveness is that the weaponry which the Kurds do have does 
not always make it to the place of greatest need.
    It is more distributed on the basis of political patronage. 
We certainly see this in and around Kirkuk, which seems to be 
the next target for the Islamic State.
    But because Kirkuk voted the wrong way in the Kurdish 
elections they are simply not getting the weaponry from the 
Kurdistan central government.
    Mr. Higgins. I yield back my time.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Higgins.
    Mr. Wilson of South Carolina.
    Mr. Wilson. Thank you very much, Madame Chair, and thank 
you for having this very important hearing and each of you we 
appreciate you being here today.
    I particularly appreciate, Dr. Rubin, the American 
Enterprise Institute. I well remember nearly 2 years ago right 
here, as our President was falsely claiming that radical Islam 
was on the run, that the threats to American families was being 
diminished, that Dr. Kagan was here with a map clearly showing 
that there was a spread of threats across North Africa, Middle 
East and Central Asia, and what he projected at that time, 
sadly, has come to effect. And so we really appreciate AEI 
presenting information to us.
    I am particularly interested in the Kurdish regional 
government that we have worked with for many years--the Kurdish 
regional government of Iraq.
    You are indicating that they have not been properly using 
the equipment received, but yet I was sincerely hoping that we 
could continue, obviously, to be working with them for the 
mutual interest that we have and that has been in place for 
decades and with the no-fly zone, on and on.
    So how can we work with them and encourage their active and 
very capable involvement?
    Mr. Rubin. Thank you, Congressman, for your kind words. I 
would say simply trust but verify, and we don't want to get 
into a situation anywhere in Iraq where we are used as a foil 
for unrelated political rivalries.
    So it is essential that we simply don't insist that the 
Kurds get the weaponry but we go the extra step and suggest 
that once they do get the weaponry they have to show that it is 
being distributed on the basis of military need and if that 
involves American advisors in the various war rooms to help 
second guess those decisions, so be it.
    Mr. Wilson. Well, thank you very much for that insight.
    Dr. Cordesman, my whole time being here--I was elected in 
2001 so I have not forgotten 9/11. It is on my mind all the 
time, that where there are safe havens for terrorists anywhere 
in the world that the American people and American families are 
at risk of a murderous attack again.
    We saw the attack of Osama bin Laden from a cave in 
Afghanistan but a greater threat over the last year it is 
inconceivable to me that the city of Mosul, a city of nearly 1 
million people, has been under the control of ISIL.
    How great a threat and as a launching place is it that such 
a city be under their control?
    Mr. Cordesman. I think the issue is much broader. As long 
as they are a growing proto state which extends into both Iraq 
and Syria they have the ability to attract foreign volunteers, 
to train them, potentially to use them.
    As people they can use in Europe or the United States to 
conduct acts of international terrorism. But right now, the odd 
aspect is they are so caught up in dealing with the al-Nusra 
front, Assad and the Iraqi Government that it is a threat which 
may well become far more serious in the future.
    The oddity, I would say, is as we look at Yemen, in spite 
of what has happened there, al-Qaeda in the Arabian Peninsula 
is still a critical issue.
    If you look at al-Qaeda in that map which, as Dr. Kagan 
presented to you several years ago, and you combine it with the 
ISIL map, it has expanded into many other areas.
    Those don't have the same internal pressures for conflict 
and in many of those you may find the threat changes and 
becomes more serious to us or other states.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Wilson.
    Mr. Wilson. Thank you.
    Ms. Ros-Lehtinen. Mr. Cicilline.
    Mr. Cicilline. Thank you, Madame Chair.
    Dr. Cordesman, in your written testimony you speak about or 
write about the need for a civil military and whole of 
government strategy for both Iraq and Syria, and you speak 
about it being largely the responsibility of these individual 
nations to determine their own destiny.
    And you, I think, accurately recite a whole series of 
challenges including deeply divided societies, inadequate 
governance, massive corruption, mismanaged economies, 
demographic pressures that make a challenging context even in 
times of peace.
    In light of that, is our reliance on a strategy that 
focuses on training and equipping the Iraqi army, the 
peshmerga, the Shi'ite militia--does that have a real 
possibility of success in any event or are there things we 
should be doing differently that might produce a better 
outcome?
    Mr. Cordesman. In the case of Iraq, I think the problem is 
we aren't doing either one particularly thoroughly. You can do 
serious damage to the Islamic State and to extremism using 
force.
    But I think that if you are going to deal with Iraq's civil 
problems you need to work very carefully with every element you 
can in Iraq to move them toward unity, to overcome the kind of 
problems and divisions that have grown between Sunni and 
Shi'ite and Arab and Kurd.
    One of the things that I think is very discouraging and one 
thing that you might want to conduct hearings on is the idea 
that what we need in Baghdad is a normal Embassy that does not 
put real pressure for this kind of unity on the Iraqi 
Government.
    I would want to see exactly what the strategy and the 
efforts are, whether there are things we could do to encourage 
federation or reform without attempting to dictate it, and I 
have not seen any indication of that, at least in public terms, 
and being reassured in broad terms doesn't help me.
    In the case of Syria, the issue is far more difficult. One 
way or another we have the al-Nusra Front, the Islamic State, 
Assad and perhaps some very small groups of Islamists which are 
more moderate.
    It has never been explained to me why training 5,000 
volunteers a year is going to have any impact on this 
situation, civil or military, and as was raised earlier, we are 
talking about essentially 11 million people, refugees or IDPs.
    So we either have some civil strategy for Syria and a 
military strategy or we have a nightmare where anything we do 
militarily does not bring stability or security.
    Mr. Cicilline. Thank you. I just have 1 minute left so I 
want to ask Dr. Rubin. Thank you, Doctor. Dr. Rubin, can you 
just speak briefly about the Kurdistan-Iran relationship?
    You know, we kind of view the opportunities that exist with 
the Kurds to be a panacea. So I would like to hear, and also 
what more can we be doing to persuade Turkey to really take 
seriously their responsibility to stem the flow of foreign 
fighters and really close their border?
    Does that continue to be a resource or pathway for most of 
the foreign fighters into the region?
    Mr. Rubin. Thank you very much. Firstly, make no mistake, 
on the ground many Kurds are pro-American. For that matter, 
many Iraqis are--non-Kurdish Iraqis are also pro-American.
    However, the Kurds have a history of abandonment. While 
Americans tend not to have extensive historical memory, Kurds 
do remember 1975 and 1988, both periods in which they feel that 
they were betrayed by the United States.
    On top of that, Iran is their neighbor and a major Iranian 
influence operation is that you can like the Americans better 
but you are always going to have live next to us and that 
Iranians do tend to exert that pressure a great deal.
    When I go to both Iraq and Baghdad, Basra and Kurdistan, 
Gerbil and Sulaymaniyah I am told, jokingly, that Qasem 
Soleimani was there 2 weeks ahead of me in each of those cities 
including Kurdistan.
    The danger is that the Americans have let their card down 
when it comes to Iraqi Kurdistan and we don't recognize the--
just how deeply they have been penetrated by the Islamic 
Revolutionary Guard corps and the Quds Force.
    Ms. Ros-Lehtinen. Thank you, Mr. Cicilline.
    Mr. Meadows.
    Mr. Meadows. Thank you, Madam Chairman.
    Dr. Spence, let me come to you. You talked about this 3-
year strategy, you know, that the success is going to take 
about 3 years and that is what the administration has said. 
This is going to be a longer-term strategy.
    So when originally we came up with this 3-year window of 
success in our fight, was it contemplated at that particular 
time that ISIL was going to expand their capabilities and 
acquire all this other new territory? Was that part of what we 
assumed was going to happen?
    Mr. Spence. Congressman, what I would say is that even 
though there is a longer-term strategy, we need to have interim 
report cards.
    You can't just wait to see what happens at the end of 3 
years and, of course, to answer your question directly two 
things that at the Defense Department we are particularly 
concerned about are, first, denying territory and safe haven to 
ISIL, meaning they should not be expanding territory.
    And then second, to what degree are we building the 
capacity to the partners doing the fighting.
    Mr. Meadows. Agreed.
    Mr. Spence. So the first question I am very, very concerned 
about----
    Mr. Meadows. So they are expanding territory. So I guess 
our strategy is not working is what I am saying. The American 
people believe it is not working. So do you have a different 
opinion?
    Mr. Spence. The way I would--the way I would put it, just 
very candidly, is there will be places where ISIL has expanded 
and there are places where ISIL is also in retreat. This is not 
a homogenous fight. Iraq is not homogenous where ISIL can have 
control.
    So to be very blunt, what happened in the last weeks was a 
significant setback. We should make no bones about it and we 
should be very honest about what happened.
    It was only a setback because this was an area where we had 
Americans fight and die before. It is in a hugely important 
part of Iraq. Also, it creates a sense of momentum. If more of 
that happens then it becomes very positive.
    Mr. Meadows. Well, and that is what I am seeing is 
momentum, but part of that is a direct response to our anemic 
air strikes, our anemic support and, I guess, when are we going 
to get serious about it.
    And I say that because under sworn testimony before the 
Senate Armed Services Committee we heard testimony that 
basically that 75 percent of our sorties that are going out are 
coming back without deploying, you know, their missiles or 
bombs and so they are coming back.
    The other troubling aspect for me is is during a 29-day 
conflict with Gaza and Israel they were able to put almost 
3,000 missiles into Israel and yet here we are, the most 
powerful nation in the world, and we, over a 4-month period, 
did less than 1,000 air strikes in a much larger geographic 
region.
    So how is that going to create the fear of the American 
military might if we are being anemic?
    Mr. Spence. So I think--I don't think we are being anemic 
now with American air power. That said----
    Mr. Meadows. Well, less than 15 flights a day. I mean, you 
get more flights coming in over the National Mall here than you 
do in Syria and Iraq. So how can you say that it is not anemic?
    Mr. Spence. Look, we have had--the sheer number of sorties 
and weapons dropped in the territory and the ISIL targets that 
have been taken out have been significant.
    Now, as I said earlier, I do think we should do whatever we 
can to make sure that we are expanding the target list and look 
very carefully to make sure that we are making the best use of 
air power.
    So as we think about forward-deployed air controllers, 
American as well as coalition forces, I think this is something 
we should seriously consider balanced against, of course, the 
risks to the U.S. services.
    Mr. Meadows. All right. Dr. Rubin, let me go very quickly 
to you because what we see is with Turkey contributing to the 
ISIL can you speak to that--our strategy with regards to 
foreign fighters coming in? And I will yield back and let you 
answer.
    Mr. Rubin. Yes, thank you, and thank you also to 
Representative Cicilline. I didn't get to this part of your 
question because of time.
    Basically, I would argue that Turkey has become Pakistan on 
the Mediterranean where they are willing to say one thing 
publicly and quite--and do quite another issue.
    I gave one item in my testimony both oral and written, 
which should be a no-brainer on the part of Turkey, to be a 
cost-free option to test whether Turkey is sincere or not.
    But look, Turkey, in the late 1990s, sealed their border 
with Syria. So the argument that they cannot seal their border 
with Syria is nonsense. They simply do not want to.
    And even if the June 7th election leads to a coalition 
government--and it is not clear that the election will be free 
and fair--over the past 10-plus years President Erdogan and his 
party have completely shifted the Syria policy, if you will, to 
the MIT--to Syria's intelligence unit.
    So even under a coalition government we are still going to 
have the problem continue unless there is some serious pressure 
on President Erdogan to stop the nonsense.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Meadows.
    Mr. DeSantis.
    Mr. DeSantis. Thank you. I thank the witnesses and I would 
just say that the Ramadi setback was something that does 
resonate with me because I know the number of people who fought 
and died and were injured driving al-Qaeda and Iraq out of 
Ramadi.
    That was one of the most dangerous places in the world in 
2005-2006. I was deployed in that area. By the time we left in 
2008 it was peaceful. And so to see it go back is something 
that hurts.
    Dr. Cordesman, to what extent is Iran supporting the Iraqi 
forces right now?
    Mr. Cordesman. Quite frankly, I think you would need to get 
that answer at a very sensitive level of intelligence. But 
several things are clear. The Quds Force is active. They have 
provided, for example, SU-25s.
    Now, they were Iraqi originally until Saddam flew them to 
Iran. They have provided significant numbers of weapons. They 
have certainly trained and equipped the militias, some of which 
are seen as more moderate than others. So you have a very 
active role and they are forward.
    So when you have Iraqi troops move forward there are often 
Iranians present in small numbers. It is not a matter of 
volunteers who are dominating any aspect of military 
operations.
    I think that they have a significant political influence 
and they certainly are tying their military actions to trying 
to give themselves visibility.
    In looking at what they have done and said, they also 
often, at least quietly, are saying our air power is 
ineffective--we are not really serious about training--you 
can't trust us, and they can split the message up between one 
focused on Shi'ites and other factions.
    They are also present in the Kurdish area and we should 
have no illusions that this is only something that affects the 
areas under the Iraqi Government control.
    Mr. DeSantis. Dr. Rubin, what do you--what is your view on 
the extent to which Iran is influencing and directing these 
anti-ISIL operations in Iraq?
    Mr. Rubin. Well, let me put it this way. Iran will take 
credit for any success that occurs. They are trying to 
infiltrate. I would respectfully disagree a bit with Dr. Spence 
that in the short term any benefit can be derived from Iranian 
actions inside Iraq.
    Iran is not an altruistic power and if the problem--if you 
are willing to accept that the problem is based in grievance 
and not simply ideology and if the grievance has to do with 
sectarianism, then the Iranian-backed forces are the most 
sectarian forces there.
    That said, there is a silver lining if we choose to take 
advantage of that. Under Prime Minister Maliki, there was a 
political purge to concert the more pro-Iranian members into 
Iraqi army units and they were the ones who fared particularly 
poorly in Mosul.
    So this idea that we can derive even military benefit from 
Iranian prowess, to me, is overstating in the extreme.
    Look, we have an interest in defeating the Islamic State. 
The Iranians have an interest also in the Islamic State. But 
arsonists and firefighters both have interests in fires. It 
doesn't mean we are on the same side of the issue.
    Mr. DeSantis. And what about the nuclear agreement or 
pending agreement? This has, obviously, unnerved a lot of Sunni 
gulf states to see the United States essentially tilting toward 
Iran.
    How does that play just kind of on the street and for the 
average Sunni Arab in al-Anbar province, I mean, if they see 
the forces as being infiltrated by Iran, they see the U.S. 
tilting perhaps toward Iran? It just seems like that we are 
driving them into the arms of ISIS.
    Mr. Rubin. Not only are we driving them into the arms of 
ISIS, but we are going to make the situation far worse down the 
line.
    The Khatam al-Anbia, which is the economic wing of the 
Islamic Revolutionary Guard corps, controls about 40 percent of 
the Iranian economy. When the Iranians derive this $50 billion 
to $100 billion in relief after any nuclear accord, that money 
isn't going to flow into ordinary Iranians' coffers.
    I used to live in the Islamic Republic. I can give you any 
number of anecdotes. But for the sake of brevity that is going 
to directly to the Iranians.
    Now, between 2000 and 2005 the price of oil doubled, the 
European Union trade with Iran almost tripled and under the 
reformists--the so-called reformists--that hard currency 
windfall went almost exclusively into Iran's nuclear and 
ballistic missile capability.
    Ms. Ros-Lehtinen. Thank you, Dr. Rubin, and thank you, 
Mr.----
    Mr. DeSantis. Yeah. Sorry.
    Ms. Ros-Lehtinen. But votes have started. So our wrap-up 
question and answer period will be led by Dr. Yoho.
    Mr. Yoho. Thank you, Madam Chair, and I appreciate it.
    Dr. Spence, you were talking about an inclusive government 
in Iraq. Is that possible in Iraq?
    Mr. Spence. Yes, I believe so.
    Mr. Yoho. You know, what I see is when Saddam Hussein was 
there, there was a unified Iraq because he ruled it with an 
iron fist. But what I see today, and talking to the experts, 
you have the Sunnis loyal to the Sunnis, Shi'a loyal to the 
Shi'a, Kurds loyal to the Kurds.
    To be able to be under one unified government I am not 
seeing that work and I know that was one of the strategies of 
being able to build these forces that were going to, you know, 
all be loyal to the Iraqi flag the way we see unity and loyalty 
to the American flag.
    I don't see that happening. What do the people of Iraq 
want? I mean, the different tribal cultures--you know, the 
split up of the cultures there--what do they want?
    Mr. Spence. They want much of what most of us want. They 
want to be represented. They don't want to be pushed out. They 
don't want to have fear for their lives and their basic needs.
    Mr. Yoho. I mean, we all have the basic rights of we want 
better for our children, a better life, and we want certain 
basic freedoms.
    But yet, do they see that working together in a unified 
country made up of different factions or different cultures?
    Mr. Spence. I think there have been--it is hard to do but 
there have been some steps taken to your question exactly about 
what has been done to outreach more. So when Prime Minister 
Abadi came in he took some immediate steps to reach out to the 
Sunnis, which Maliki simply had not done.
    He appointed, for example, a Defense Minister who is a 
Sunni, which is a critical form--a critical post to have had. 
He fired some of the most political generals who really weren't 
leading at all.
    Even after what happened in Ramadi he called his full 
cabinet--his national security cabinet together where it was 
both Kurds and Sunnis and Shi'a to talk about what they need to 
do necessarily.
    Within the Iraqi Parliament a bill for a national guard, 
which would not just have Shi'as fighting, has passed a second 
reading. So steps have been taken to bring some of these 
fighters in. It is hard, but things have been done and I think 
we just need to push more to happen.
    Mr. Yoho. Well, I have seen that and you are talking about 
that national guard made up of different groups. We tried that 
with the Iraqi security forces and they folded like cheap 
suits.
    Dr. Cordesman, what is your opinion on that?
    Mr. Cordesman. I don't think that the security forces 
universally fold. I think some of them have been exhausted. 
Better units, for example, were sent in to Ramadi--not rotated, 
not supported and not reinforced.
    Mr. Yoho. Dr. Rubin, how about you?
    Mr. Rubin. I have talked to Iraqi insurgents and I have 
talked to Shi'ites. The one area of consensus in which they 
have is a support for administrative federalism and by that I 
mean while Baghdad would have control over foreign policy and 
defense, all other decisions would be based on the district or 
sub-district level, not based on ethnic divisions, although 
oftentimes those will coincide.
    Mr. Yoho. Is that long term or is that just to get through 
the crisis we are in now?
    Mr. Rubin. That is long term.
    Mr. Yoho. All right. Let me ask you this about Syria, if we 
can pivot to Syria.
    Where is the U.N.? Has there been a resolution from the 
U.N. that comes out and denounces Assad and denounces the civil 
war and Assad for having a civil war, for the hundreds of 
thousands of people that have been genocide there, 
destabilizing not just his country, the surrounding countries, 
the whole Middle East and basically the world?
    When you have 7 million refugees, where is the U.N. coming 
out and saying, we are done with this--we are doing an 
ultimatum--you need to get your country under control in a time 
period and the world--the nations of the world stand up? Has 
that been done, and why not if not?
    Mr. Rubin. When you ask the question where is the U.N. the 
answer is usually in a five-star hotel.
    Mr. Yoho. Right.
    Mr. Rubin. But the real problem with regard to the United 
Nations on this is it is infused with cultural and moral 
equivalency. It is not there to solve problems. It is there to 
avoid solutions.
    Mr. Yoho. Well, and I think they do very well at that. And, 
you know, and then I question why are we there--why are we with 
the U.N. and where is the rest of the world, because what Assad 
is doing is bad, you know, for everything I just mentioned and 
I think the biggest thing is the humanitarian crisis and the 
strife he has caused in that country to his own people.
    This has gone on long enough. I would wish the world 
community would come up and say, this is it--you are done and 
it needs to have a regime change.
    But then I worry about who is going to fill that void 
because as we all know, nature abhors a vacuum and I am out of 
time. Thank you.
    Ms. Ros-Lehtinen. Thank you, Dr. Yoho.
    Mr. Yoho. I got to go do my constitutional duty and vote.
    Ms. Ros-Lehtinen. Thank you to our panelists, and before we 
adjourn I would like my wonderful congressional interns to 
stand up and take a bow. We are singlehandedly keeping all of 
these juvenile delinquents off the streets.
    Thank you, guys, and with that our subcommittee is 
adjourned.
    [Whereupon, at 1:19 p.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
